No. ________
In the
Supreme Court of the United States
OCTOBER TERM, 2020

MICHAEL RAY ORR,
Petitioner,
V.

THE STATE OF TEXAS
Respondent.

MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS

AMY R. BLALOCK
Attorney-At-Law
P.O. Box 765
Tyler, TX 75710
Texas Bar Card No. 02438900
Attorney for Petitioner

MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS
Pursuant to Rule 39 of the Supreme Court Rules and Title 18, United States
Code, Section 3006(d)(6), Petitioner asks leave to file the attached Petition for Writ
of Certiorari to the United States Supreme Court without prepayment of costs and to
proceed in forma pauperis.
Petitioner was represented by the undersigned counsel, appointed by the 241st
District Court of Texas after a finding of indigence, on appeal to the Twelfth Court
of Appeals and the Court of Criminal Appeals of Texas.

Respectfully submitted,

/s/ Amy R. Blalock
AMY R. BLALOCK
Attorney-At-Law
P.O. Box 765
Tyler, TX 75710
Texas Bar Card No. 02438900
Attorney for Petitioner

CERTIFICATE OF SERVICE
I hereby certify that on the 12th day of July, 2021, I served one (1) copy of the
foregoing Motion For Leave To Proceed In Forma Pauperis on the following
individuals by mail by depositing same, enclosed in post paid, properly addressed
wrapper, in a Post Office or official depository, under the care and custody of the
United States Postal Service, or by other recognized means pursuant to the Rules of
the Supreme Court of The United States of America, Rule 29:
Michael West
Smith County District Attorney’s Office
100 N. Broadway
Suite 400,
Tyler, TX 75702
Michael Ray Orr
SID # 07338250
TDCJ #02298220
Ellis Unit
1697 FM 980
Huntsville, TX 77343

/s/ Amy R. Blalock
AMY R. BLALOCK
Attorney for Petitioner

